No.____________

In the Supreme Court of the United States

CHAKA LECHAR CASTRO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
To the United States Court of Appeals
for the Sixth Circuit
CORRECTED MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
James C. Thomas, undersigned counsel for petitioner, was previously
appointed to represent petitioner in the U.S. District Court for the Eastern
District and the Sixth Circuit United States Court of Appeals pursuant to the
Criminal Justice Act, 18 U.S.C. ยง 3006A.
Further, Petitioner, who is currently imprisoned, has previously been
granted leave to proceed in forma pauperis in all proceedings, including the
District Court and Sixth Circuit Court of Appeals proceedings.
JAMES C. THOMAS, P.C.
/s/ James C. Thomas
By: James C. Thomas (P23801)

Counsel for Petitioner

DATED: January 14, 2021

12900 Hall Road, Suite 350
Sterling Heights, MI 48313
586-726-1000
jthomas@orlaw.com

